No. 20-7665

 

 

IN THE
SUPREME COURT OF THE UNITED STATES

DONALD DAVID DILLBECK, PETITIONER,
v.

STATE OF FLORIDA, RESPONDENT.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE FLORIDA SUPREME COURT

CERTIFICATE OF SERVICE

I, Carolyn Snurkowski, a member of the Bar of this Court, hereby certify that a
copy of the Respondent's Brief in Opposition was furnished by United States mail and
by email to BAYA HARRISON, III, P.O. Box 102, Monticello, FL 32345; phone: (850)
997-5554; email: bayalaw@aol.com; and SEAN GUNN, Capital Habeas Unit of the
Office of the Federal Public Defender of the Northern District of Florida, 227 N.
Bronough Street, Suite 4200, Tallahassee, FL 33301; Phone: (850) 942. 8818; email:
sean_gunn@fd.org on this 6th day of May, 2021.

  

Associate Deputy Attorney General
Counsel of Record

OFFICE OF THE ATTORNEY GENERAL
CAPITAL APPEALS

THE CAPITOL, PL-01

TALLAHASSEE, FL 32399-1050

(850) 414-3300

COUNSEL FOR RESPONDENT

26
